Sit tfje Supreme Court of tlje ®mteb States;
John Dan Bumphus, Jr., pro se, Petitioner
v.
UniQue Personnel Consultants, Inc., et al., Respondents

ON PETITION FOR A WRIT OF
CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
No. 19-2621

CORRECTED RULE 44 PETITION FOR REHEARING DECISION 20-7233 DENYING
PETITION FOR WRIT OF CERTIORARI
John Dan Bumphus, Jr., pro se,

UniQue Personnel Consultants, Inc.

Plaintiff

Defendant

221 South Myrtle

217 W. Clay

Edwardsville, IL 62025-1510

Troy, IL 62294-1162

Question Presented for Review in 20-7233
Did the United States Court of Appeals for the Seventh Circuit abuse its jurisdictional
standard of review, by allowing a District Court judge to negate the total realm of protected act
ADA rights for a reported, medically diagnosed and documented, posttraumatic stress disorder
(PTSD) patient’s disability, by making the unsubstantiated declarative ruling that the
aforementioned PTSD “wasn’t permanent”?

RECEIVED
JUL 15 2021

g«gff<385im I

June 30, 2021
To the Court:
WHY THE SUPREME COURT’S ORDER DENYING THE PETITION FOR
WRIT OF CERTIORARI DESERVES A REHEARING
The intervening circumstances of substantial and controlling effect under Rule 44, which
are the distinct grounds of this corrected petition for rehearing, are as follows:
1. After District Court Judge Staci M. Yandle ruled (Document 137, Page ID #1092,
Filed 08/30/18) that “Bumphus does not contend that he had a record of an
impairment or was regarded as having an impairment.”, I realized that in my
(Appendix “A”) original, March 22, 2016-filed “EMPLOYMENT
DISCRIMINATION COMPLAINT” I wrote, and entered into the record on Page 7,
of my TV. FACTS IN SUPPORT OF CLAIM’, which was found plausible, and
deemed ready for U.S. Marshall’s Service to all Defendants by Judge Yandle on April
14, 2016, that “The Plaintiff has been, years before his June 11, 2015 initial interview
for employment began at UniQue Personnel Consultants of Glen Carbon, Illinois,
officially designated and acknowledged, by way of the Social Security
Administration, to be a disabled person living with the history of having had the
generalized anxiety disorder psychological symptoms of a Post-Traumatic Stress
Disorder (PTSD).” This negligent contradiction by Judge Yandle thereby became an
intervening circumstance of substantial controlling effect, which served to eliminate,
and negate, my Constitutionally protected act private rights of action under the
Americans with Disabilities Act (ADA), under Section 504, and of acquiring

1

compensatory damages for the Intentional Infliction of Emotional Distress, which are
available to me under Illinois State law.
2. However, Judge Yandle, even after finding my original complaint ‘FACTS IN
SUPPORT OF CLAIM’ pronouncement of Social Security Disability plausible
enough for serving to the Defendants, did not analyze the evidence presented therein
to be sufficient evidence of my then, and now still current, Social Security
Administration implemented, Medicare Insurance covered and benefitted, PTSD
disability in her (Document 137, Page ID #1092, Filed 08/30/18) ruling. In fact, on
the next page, Judge Yandle then doubled-down on her ignoring of my ‘FACTS IN
SUPPORT OF CLAIM’ statement by reiterating and broadening her previous page
disclaimer (Document 137, Page ID #1093, Filed 08/30/18) by again ruling, “there is
insufficient evidence in the record establishing that Bumphus is disabled within the
meaning of the ADA.” Again, this contradiction by Judge Yandle also is an
intervening circumstance of substantial controlling effect, which served to eliminate
and negate my Constitutionally protected act private rights of action under the
Americans with Disabilities Act (ADA), under Section 504, and of acquiring
compensatory damages for the Intentional Infliction of Emotional Distress, which are
available to me under Illinois State law.
3. Title 42 §12101-§12111, and § 12203 (b) of the Americans with Disabilities Act
(ADA) of 1990 as Amended, are enforceable as United States Constitutional law. The
ADA is a civil rights law overseen and implemented by the Social Security
Administration, which prohibits discrimination based on disability by affording
similar protections against Americans with disabilities as does the Civil Rights Act of

2

1964. A mental condition, such as posttraumatic stress disorder (PTSD) does not need
to be severe or permanent to be a disability. And although not in the text of the
statute, courts have held that individuals have a private right of action under Section
504. While punitive damages are not available, compensatory damages for the
Intentional Infliction of Emotional Distress are available to plaintiffs under Illinois
State law. The text of the United States Constitution does not contain a specific
reference to the power of judicial review. Rather, the power to declare laws
unconstitutional has been deemed an implied power, derived from Article
III and Article VI.
4. I had also presented and noted into the record as evidence of my PTSD disability, in
my original complaint ‘FACTS IN SUPPORT OF CLAIM’ statement #10 (Page 910, “Appendix “A”) that I, as Plaintiff, had presented Defendant UniQue Personnel
Human Resources Administrator Krista Findlay “a copy of his 2014 book ‘Necessary
Candor’, wherein he underlined and discussed with her the passages in pages 80 & 81
which acknowledged his ongoing psychological treatment, as a disabled employee,
for having had the generalized anxiety7 disorder psychological symptoms of a PostTraumatic Stress Disorder (PTSD).”
5. Judge Yandle’s persistent refusal, from the outset of my original complaint filing, to
acknowledge the existential reality of my actual PTSD disability, thoroughly created
the intervening circumstance of eliminating and negating my Constitutionally
protected act private rights of action under the Americans with Disabilities Act
(ADA), under Section 504, and of acquiring compensatory damages for the

3

Intentional Infliction of Emotional Distress, which are available to me under Illinois
State law.
6. The provisions relating to the federal judicial power in Article III state that the
judicial power of the United States, shall be vested in one Supreme Court, and in such
inferior courts as the Congress may from time to time ordain and establish.
7. The Supremacy Clause of Article VI states that this Constitution, and the Laws of the
United States which shall be made in Pursuance thereof: and all Treaties made, or
which shall be made, under the Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall be bound thereby, any Thing in
the Constitution or Laws of any State to the Contrary notwithstanding. All executive
and judicial Officers, both of the United States and of the several States, shall be
bound by Oath or Affirmation, to support this Constitution.
8. The power ofjudicial review has been implied from these provisions based on the
reasoning that it is the inherent duty of the courts to determine the applicable law in
any given case. The Constitution is the fundamental law of the United States. Federal
statutes are the law of the land only when they are "made in pursuance" of the
Constitution. State constitutions and statutes are valid only if they are consistent with
the Constitution. Any law contrary to the Constitution is void. The federal judicial
power extends to all cases "arising under this Constitution." As part of their inherent
duty to determine the law, the federal courts have the duty to interpret and apply the
Constitution and to decide whether a federal or state statute conflicts with the
Constitution. All judges are bound to follow the Constitution. If there is a conflict, the
federal courts have a duty to follow the Constitution and to treat the conflicting

4

statute as unenforceable. The Supreme Court has final appellate jurisdiction in all
cases arising under the Constitution, so the Supreme Court has the ultimate authority
to decide whether statutes are consistent with the Constitution.
9. In 1995,1 suffered a California Labor Code § 3208.3 Cumulative Stress Injury to my
psyche, caused by my employment with the TIMEC Corporation, according to a 1996
Finding of Fact made by Walnut Creek, California Workers’ Compensation Appeals
Board Presiding Judge George W. Mason, Jr. (WCK0023185), before a subsequent
June, 1998, San Francisco, California federal court civil employment law jury verdict
was made in my favor for the Intentional Infliction of Emotional Distress (*John
Bumphus vs. TIMEC, C-95-3400) before United States District Court for the
Northern District of California Judge Susan Illston.
10. The Americans with Disabilities Act (ADA) does not contain a list of medical
conditions that constitute disabilities. However, according to the Equal Employment
Opportunity Commission (EEOC), the individualized assessment of virtually all
people with PTSD will result in a determination of disability under the ADA; given
its inherent nature, PTSD will almost always be found to substantially limit the major
life activity of brain function (EEOC Reg., 2011). It is already a documented medical
evidentiary fact here, according to the January 20, 2015, Axis I diagnosis of
Psychiatrist Mirza Baig, M.D., of Centerstone of Alton, Illinois, that I was, and am,
thereby eligible for all of the legal workplace protections offered under the Americans
with Disabilities Act (ADA) when the Defendant UniQue Personnel Consultants,
Inc., hired me in June of 2015.1 was not required to disclose my disability during the
initial job interview.

5-

11. Prior to my dismissal, on the July 17, 2015 date of my dismissal from employment
with Defendant UniQue Personnel Consultants, I presented medical documentary
evidence to that Defendant from my primary care physician, David Yablonsky, D.O.,
which pointed to the instrumentation and spinal debris in my L4-5 area. Immediately
subsequent to that evidence being presented, I went to my car and retrieved a copy of
my 2014 autobiographical book, “Necessary Candor”, which I also presented to that
same Defendant’s Human Resources Administrator after pointing out, and hi-lighting
in yellow, the passage on pages 80 and 81 which reads, “I am now, by way of the
Social Security Administration, officially designated and acknowledged as a
psychologically disabled person due to my experiences as an employee with the
TIMEC Corporation. Yes, I am a person who has actually and officially been
rendered disabled by racism in the American workplace. I am still in treatment for the
post-traumatic emotional stress disorder symptoms purposely inflicted upon me by
those within the TIMEC Company, Inc., who sought, and fought wholeheartedly with
full malice, to punish me severely for speaking out to them, within their own conflict
resolution system, before I ever even considered going to the federal government,
about one single, simple occurring act of just one of their racially discriminatory
practices.”
12. A stream of initial disputes during Discovery in the March 22, 2016, PTSD-disabled
pro se Plaintiff Bumphus filed ADA complaint (Document #2) Case No.: 16-312SMY-DGW (assigned to Judge Staci M. Yandle, and Magistrate Donald G.
Wilkerson), whereby the collective Defendants illegally, and repeatedly, refused to
acknowledge the existence of my disability, led to my filing of the (Document #70)

6

November 16, 2016 filed, “PRO SE PLAINTIFF’S MOTION TO COMPEL”, before
Magistrate Donald Wilkerson, wherein I, on Page 2 wrote, “The disabled pro se
Plaintiff John Bumphus was already a disabled individual when he applied for
employment with Defendant UniQue Personnel Consultants, Inc., on June 11, 2015.
The Americans with Disabilities Act (ADA) does not contain a list of medical
conditions that constitute disabilities. Instead, the ADA has a general definition of
disability that each person must meet on a case by case basis (EEOC Reg., 2011). A
person has a disability if he/she has a physical or mental impairment that substantially
limits one or more major life activities, a record of such an impairment, or is regarded
as having an impairment (EEOC Reg., 2011). However, according to the Equal
Employment Opportunity Commission (EEOC), the individualized assessment of
virtually all people with PTSD will result in a determination of disability under the
ADA; given its inherent nature, PTSD will almost always be found to substantially
limit the major life activity of brain function (EEOC Reg., 2011).” Magistrate
Wilkerson, after choosing to schedule the date of December 3, 2016 to telephonically
meet with the parties to resolve the Motion to Compel, instead cancelled that hearing,
as he announced his “retirement” that morning. However, Magistrate Wilkerson did
not actually retire from the United States Federal District Court for the Southern
District of Illinois until January of 2019.
13. The Defendant UniQue Personnel has also now since admitted under oath, in
(Document #83,) filed January 12, 2017, (Page ID #444), wherein they stated in
admission that on July 17, 2015,1 handed Krista Findlay a copy of my book entitled
“Necessary' Candor,” and that the following passage in the book, found on pages 80

7

and 81 therein, was highlighted with yellow marker: “I am now. by way of the Social
Security Administration, officially designated and acknowledged as a psychologically
disabled person due to my experiences as an employee with the TIMEC Corporation.
Yes, I am a person who has actually and officially been rendered disabled by racism
in the American workplace. I am still in treatment for the post-traumatic emotional
stress disorder symptoms purposely inflicted upon me by those within the TIMEC
Company, Inc.”
14. For Judge Yandle to ignore the Defendant UniQue’s revised (Document #83)
admission, by ruling (Document 137, Page ID #1093, Filed 08/30/18) '‘there is
insufficient evidence in the record establishing that Bumphus is disabled within the
meaning of the ADA.”, is again, an intervening circumstance of substantial
controlling effect, which served to eliminate and negate my Constitutionally protected
act private rights of action under the Americans with Disabilities Act (ADA), under
Section 504, and of acquiring compensatory damages for the Intentional Infliction of
Emotional Distress, which are available to me under Illinois State law.
15. Due to the intervening circumstance of Judge Yandle having cancelled all three
scheduled bench trial dates pertaining to this ADA complaint which, as an
intervening circumstance of substantial controlling effect that served to eliminate and
negate my Constitutionally protected act private rights of action under the Americans
with Disabilities Act (ADA), under Section 504, and of acquiring compensatory
damages for the Intentional Infliction of Emotional Distress, which are available to
me under Illinois State law, I did not, as a PTSD-disabled pro se Plaintiff, have the
opportunity to personally present these positions of fact to the Court.
8

16. During Discovery, I asked the Defendant Synergy Coverage Solutions to admit that 1
was, according to the Americans with Disabilities Act (ADA), a disabled employee of
UniQue Personnel Consultants, Inc., during my entire time of employment, from June
21, 2015, through July 17, 2015.
17. Defendant Synergy’s response was, “Synergy Coverage Solutions, LLC objects to
this interrogatory in that the subject asked therein is a fact which is not relevant to
Plaintiff’s claim against Synergy Coverage Solutions, LLC, which is not a claim
under the Americans with Disabilities Act (ADA), or Synergy’s defense to same and
therefore this interrogatory is not within the permitted scope as stated in Federal Rule
of Civil Procedure 26(b)(1). Additionally, this request assumes the contested fact of
whether Plaintiff is considered disabled under the ADA. Further answering, the
referenced claim of Plaintiff for workers’ compensation insurance is noncompensable as stated in the pleadings before the Illinois Industrial Commission.
Further answering. Synergy states that any claim made against it in federal court,
including an ADA claim, arising out of the state workers’ compensation proceedings
cannot be heard in federal court without violating the Rooker-Feldman doctrine. See,
Sykes v. Cook County Circuit Court Probation Division, No. 15-1781 (7th Circuit,
September 14, 2016). Further answering. Synergy objects to this Request as it appears
to ask a question of law, which is not within the scope of Federal Rule of Civil
Procedure 36.”
18. In rebuttal, and because of the failure of Judge Yandle to actualize any of the three
scheduled Court dates did not allow this matter to be resolved in open Court, I point
out here that the EEOC federal civil claim was filed on August 6, 2015, while the

9

Illinois Workers’ Compensation claim was filed later, on August 14, 2015. Thereby,
it was the workers’ comp claim which “came out of' the federal ADA claim, and not
the other way around. The only “question of law” involved here is the Title 42 §
12203(b) Americans with Disabilities Act (ADA) “Interference Provision”.
19.1 then asked the Defendant Synergy Coverage Solutions to “admit that on November
23, 2015, Jennifer Yates-Weller, the attorney you hired to defend the Illinois
Workers’ Compensation mental-mental injury claim of John Bumphus, knowingly
created, presented, fraudulently signed and personally affirmed for Proof of Service
as an attorney, two (2) forged Subpoenas Duces Tecum, under the auspices and in
clear violation of Chapter II §7030.50-Subpoena Practice, 50 ILLINOIS
ADMINISTRATIVE CODE, Illinois Workers’ Compensation Rules Governing
Practice by U.S. Mail, to John Bumphus, to Dr. Yablonsky at Associated Physician’s
Group in Edwardsville, Illinois, and to Dr. Baig at Wellspring Resources in Alton,
Illinois w’hich is now known as Centerstone, by which she was successful in the
instance of Dr. Yablonsky’s office, of allowing her to illicitly gain unauthorized
access to John Bumphus’ personal medical records, in a collective effort along with
UniQue Personnel Consultants, Inc., and yourself, to avoid, delay, and deny, the
payment of John Bumphus’ Illinois Workers’ Compensation mental-mental injury'
benefits, while at the same time violating Section § 17-3 Forgery, of the Illinois
Compiled Statutes, which recognizes the forgery Case 3:16-cv-00312-SMY
Document 54 Filed 09/27/16 Page 4 of 8 Page ID #306 of a dismissed Illinois
Workers’ Compensation Commission Chairman’s signature as a Class 3 criminal
felony.”

10

20. Defendant Synergy Coverage Solution’s response was, “Synergy Coverage Solutions,
LLC denies this Request.”
21. In rebuttal, and because of the failure of Judge Yandle to actualize any of the three
scheduled Court dates did not allow this matter to be resolved in open Court, I point
out here that as the guilty legal agent of Defendant Synergy Coverage Solutions,
LLC, Defendant Jennifer Katherine Yates-Weller, and as a law firm partner with
Defendant Hennessy & Roach, P.C., thereby also through vicarious liability
compromised all of them culpable as well in the Title § 42 12203 (b) ADA
“Interference” violation of the Plaintiff.
22.1 also asked the Defendant Unique Personnel Consultants to “admit that you have
been made aware, through the medical evidentiary discoveries in the Illinois
Workers’ Compensation Commission trial of Case No.: 15WC027577 (John
Bumphus vs UniQue Personnel Consultants), that in the January 20, 2015 Psychiatric
Diagnosis of John Bumphus by his treating Psychiatrist Mirza Baig, M.D., along with
the “current (Axis I) diagnosis” on that date which identified John Bumphus as
having the clinical disorder of having a “History of PTSD”, while also being
diagnosed in his (Axis III) diagnosis, points out that one of the physical problems of
John Bumphus which may cause an exacerbation to his post-traumatic stress disorder
(PTSD) mental health condition includes “spinal stenosis”.”
23. Defendant Unique Personnel Consultants’ response was, “Defendant objects to this
Request as it violates Fed. R. Civ. P. 36(a)(2) insofar as it contains more than one
matter and each matter is not separately stated. Defendant also objects to this Request
as it is argumentative and seeks a legal conclusion and further objects to the

11

characterization of Plaintiff as “disabled,’ on the bases that said characterization is
argumentative and improper, and on the additional basis that whether a claimed
affliction actually constitutes an impairment under the Americans with Disabilities
Act (“ADA”) is a Case 3:16-cv-00312-SMY Document 62 Filed 10/13/16 Page 8 of
16 Page ID #359 9 determination of law and is thus a legal conclusion and
inappropriate, and is not within the scope of Federal Rule of Civil Procedure 36.
Further, Defendant states that this Request runs afoul of the Rooker-Feldman
doctrine. See Rooker v. Fidelity Tr. Co., 263 U.S. 413, 44 S. Ct. 149, 68 L. Ed. 362
(1923); D.C. Court of Appeals v. Feldman, 460 U.S. 462, 103 S. Ct. 1303, 75 L. Ed.
2d 206(1983).
24. In rebuttal, and because of the failure of Judge Yandle to actualize any of the three
scheduled Court dates did not allow this matter to be resolved in open Court, I point
out here that the EEOC federal civil claim was filed on August 6, 2015, while the
Illinois Workers’ Compensation claim was filed later, on August 14, 2015. Thereby,
it was the workers’ comp claim which “came out of’ the federal ADA claim, and not
the other way around. The only “question of law” involved here is the Title 42 §
12203(b) Americans with Disabilities Act (ADA) “Interference Provision”. Thereby,
Rooker-Feldman does not apply.
25. The Defendant UniQue Personnel has also now since admitted under oath, in
(Document #83,) filed January 12, 2017, (Page ID #444), wherein they stated in
admission that on July 17, 2015, John Dan Bumphus, Jr. handed Krista Findlay ;
copy of his book entitled “Necessary Candor,” and that the following passage in the
book, found on pages 80 and 81 therein, was highlighted with yellow marker: “I am

12

now, by way of the Social Security Administration, officially designated and
acknowledged as a psychologically disabled person due to my experiences as an
employee with the TIMEC Corporation. Yes, I am a person who has actually and
officially been rendered disabled by racism in the American workplace. I am still in
treatment for the post-traumatic emotional stress disorder symptoms purposely
inflicted upon me by those within the TIMEC Company, Inc.”
26. Alone, that singular and particular, above-stated federal civil employment litigation
evidentiary admission was clearly capable of irrevocably establishing to the United
States Court of Appeals for the Seventh Circuit’s jurisdictional standard of review,
that before his dismissal from employment on the July 17, 2015 onset date of the
verbal employment dispute meeting, at the Defendant UniQue Personnel’s Glen
Carbon, Illinois, office concerning a pattern of repeated unscheduled overtime
requests which required that the PTSD-disabled pro se Plaintiff John Dan Bumphus,
Jr., participate in a series of awkwardly painful, uncomfortable lifting tasks which
brought distress to the L4-5 region of his back, due to his having a rod, and two pins,
placed there from a 2006 spinal fusion surgery, which then caused a disabling
exacerbation of his previously-diagnosed Social Security Administrationacknowledged, DSM Code-Description F43.10-Posttraumatic Stress Disorder of John
Dan Bumphus, Jr., the Defendant UniQue Personnel Consultants, Inc., was aware and
duly informed of his active PTSD-disability status which covered him, as a disabled
citizen, with all of the Constitutional Law protections provided under Title 42
§12101, of the Americans with Disabilities Act (ADA) of 1990 as Amended,
including the “interference” provision with respect to his ADA rights, under 42

13

U.S.C. § 12203(b), which is broader than the anti-retaliation provision, in protecting
any individual who is subject to coercion, threats, intimidation, or interference with
respect to any of his ADA rights. Yet to this day they have declined and tacitly
refused to engage the Plaintiff in the Reasonable Accommodation Interactive process
covered by both Title 42 § 12111 (9), in addition to their ignoring the legislated task
set forth by the §23:68 Interactive Process for Disability' under the Illinois Workers’
Compensation Act. Aside from not engaging the PTSD-disabled pro se Plaintiff in the
federal law Title 42 § 12111 (9) interactive process, the collective Defendants
UniQue Personnel Consultants, Inc., Defendant SYNERGY Coverage Solutions,
L.L.C., Defendant attorney Jennifer Katherine Yates-Weller, as a partner with
Defendant Hennessy & Roach, P.C., and Defendant Andrew Toennies, have all
collectively coerced, threatened, lied, intimidated, and illegally interfered, in violation
of the aforementioned “interference” provision, with respect to the PTSD-disabled
pro se Plaintiff’s ADA rights, under 42 U.S.C. § 12203(b).

CONCLUSIONI hereby respectfully request that this United States Supreme Court, after
considering this substantial intervening circumstantial evidence, chooses to under
Rule 44 Rehear this corrected submitted Petition for Writ of Certiorari.
Respectfully Submitted, ^

John Dan Bumphus.Tr.
June 30, 2021
14

